 

No. 19-1328

 

IN THE
Supreme Court of the Anited States

 

UNITED STATES DEPARTMENT OF JUSTICE,
Petitioner,
wi.

COMMITTEE ON THE JUDICIARY OF THE
UNITED STATES HOUSE OF REPRESENTATIVES,

Respondent.

 

RULE 33.1(h) CERTIFICATE OF COMPLIANCE

 

As required by Supreme Court Rule 33.1(h), I certify that the Brief of
Constitutional Accountability Center as Amicus Curiae in Support of Respondent
contains 6,531 words, excluding the parts of the document that are exempted by

Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 21, 2020.

Broiounes \ ; ul)
Brianne J+ Gorod '

Counsel for Amicus Curiae
